OFFICE OF INSPECTOR GENERAL


AUDIT OF
USAID/GUATEMALA’S
MANAGEMENT OF ITS P.L.
480 NON-EMERGENCY
MONETIZATION PROGRAM
AUDIT REPORT NO.1-520-07-002-P
NOVEMBER 27, 2006




SAN SALVADOR, EL SALVADOR
                       Office of Inspector General




       November 27, 2006

       MEMORANDUM

       TO:                USAID/Guatemala Mission Director, Wayne Nilsestuen

       FROM:              RIG/San Salvador, Timothy E. Cox /s/

       SUBJECT:           Audit Report on USAID/Guatemala’s Management of Its P.L. 480 Non-
                          Emergency Monetization Program (Audit Report No. 1-520-07-002-P)

       This memorandum transmits our final report on the subject audit. We have carefully
       considered your comments on the draft report in finalizing the audit report and have
       included your response in Appendix II of the report.

       The report includes six recommendations intended to help improve program operations.
       Based on additional information that came to our attention after the draft report was
       submitted, we have revised some of the findings and recommendations and added a
       new recommendation. Also, based on your comments and documentation provided, we
       determined that a management decision has been reached for Recommendation No. 1.
       Determination of final action for Recommendation No. 1 will be made by the Audit
       Performance and Compliance Division (M/CFO/APC). Management decisions for
       Recommendation Nos. 2, 3, 4, 5 and 6 can be recorded when we have agreed with
       USAID/Guatemala on a firm plan of action, with target dates, for implementing the
       recommendations. In this regard, please advise us in writing, within 30 days, of the
       actions planned to implement these recommendations.

       Again, I want to express my appreciation for the cooperation and courtesy extended to my
       staff during the audit.




U.S. Agency for International Development
Regional Inspector General/San Salvador
Unit 3110; APO, AA 34023
Tel (503) 2228-5457 - Fax (503) 2228-5459
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 3

Audit Objective .................................................................................................................. 4

Audit Findings ................................................................................................................. 5

Are USAID/Guatemala’s P.L. 480 monetization activities achieving
selected planned outputs? ................................................................................................ 5

     Reliance on One Commodity Increases
     Program Risks ............................................................................................................ 5

     The Monetization Program Should Move to
     an Open and Competitive Sales Approach .............................................................. 7

     The Program Incurred Losses That
     Were the Responsibility of the Buyer .......................................................................... 9

     Losses Were Not Claimed from the
     Shipping Company ................................................................................................... 12

     The Consortium May Negotiate to Retain
     Taxes as Host Country Contributions ...................................................................... 12

Appendix I – Scope and Methodology ........................................................................ 14

Appendix II – Management Comments ....................................................................... 16
SUMMARY OF RESULTS
The objective of the P.L. 480 Title II program is to provide food aid to vulnerable groups
in emergency situations and to promote development programs critical to long-term food
security. When authorized by USAID, cooperating sponsors who implement the
program may either distribute the commodities directly to recipients or sell the
commodities to generate foreign currency to support local development programs. The
sale of U.S. agricultural commodities by cooperating sponsors (turning food assistance
into program funds) is referred to as monetization. The monetization program in
Guatemala is implemented by four cooperating sponsors. (See page 3.)

As part of a worldwide audit of P.L. 480 non-emergency monetization activities, RIG/San
Salvador performed this audit to answer the following question:

  •    Are USAID/Guatemala’s P.L. 480 monetization activities achieving selected
       planned outputs? (See page 4.)

We were not able to answer this question because in Guatemala no development
programs were funded by commodity sales and hence no outputs were defined for
USAID/Guatemala’s monetization activities. Instead, monetization proceeds were used
to defray expenses associated with distributing food assistance under the P.L. 480 food
program and therefore contributed indirectly to achieving the outputs that were defined
for the food distribution program. However, we found several opportunities to improve
program operations. (See pages 5 to 13.)

The program relies on only one commodity (crude degummed soy oil), making the
program vulnerable to supply and demand disruptions, and also leading the cooperating
sponsors to rely on a single buyer. Relying on a single buyer puts the cooperating
sponsors in a weak bargaining position and, as a result, the program incurred more than
$250,000 in losses that were the responsibility of the buyer. Also, the cooperating
sponsors paid the buyer $40,680 in damages when oil was delivered eight days late, but
then failed to make a claim against the shipper that was responsible for the late delivery.
Finally, in our opinion, it may be worthwhile for the cooperating sponsors to negotiate
with the Government of Guatemala to see if the government is willing to contribute the
revenue from taxes on soy oil imported under the program as suggested by USAID
Regulation 11 and the 1998 P.L. 480 Monetization Manual. Since 2002, the government
has collected an estimated $3.3 million in taxes on P.L. 480 soy oil. (See pages 5
through 13.)

This report recommends that USAID/Guatemala, working with the Office of Food for
Peace as appropriate, (1) move to a market basket approach by selling additional
commodities, hiring agents, or selling to third countries; (2) move toward an open and
competitive approach to selling commodities rather than relying on a single buyer; (3)
enforce the contract with the buyer which stipulates that the buyer accepts the survey
report issued and transfer of title to the oil at the point of delivery, or change the contract
so that title passes at some other point; (4) obtain evidence that the cooperating
sponsors have reimbursed the program for $252,589 in losses that were the
responsibility of the buyer; (5) ensure that the cooperating sponsors assert “Force
Majuere” as a defense to the claim from the buyer, recover $40,680 from the buyer, and
return the amounts recovered to the program; and (6) negotiate with the Government of


                                                                                             1
Guatemala to see if the government is willing to donate revenue from taxes on soy oil
imported under the program to the program as a government contribution. (See pages 7
to 13.)

USAID/Guatemala agreed with the conclusions in our draft audit report for the most part,
but believed that the report contained some recommendations that could not be
implemented due to the market conditions in Guatemala. We agreed with the Mission on
certain issues and revised the final report with careful consideration of the Mission’s
response to the draft report. However, there were certain issues where we disagreed with
the Mission. In addition, based on additional information that came to our attention after we
issued our draft report, we have revised one of the audit findings and added a new
recommendation. Our evaluation of management comments is provided after each finding
and recommendation in the report. USAID/Guatemala’s comments in their entirety are
included in Appendix II.




                                                                                           2
BACKGROUND
The Agricultural Trade Development and Assistance Act of 1954, also known as Public
Law 480, is the principal mechanism through which the U.S. Government implements its
international food assistance initiatives. The intent of this legislation, which has been
modified many times, is to promote food security in the developing world through
humanitarian and developmental uses of food aid. Food assistance provided under P.L.
480 is delivered to foreign countries under three separate programs - Title I, II and III -
with the bulk of this food aid furnished under Title II, administered by USAID, to support
targeted emergency relief operations and development projects. Title II projects are
implemented through a variety of cooperating sponsors that include private voluntary
organizations, non-governmental organizations, and international organizations.

The objective of the Title II program is two-fold: to provide food aid to vulnerable groups
in emergency situations and to promote developmental programs critical to long-term
food security. In other words, the Title II budget supports both emergency and non-
emergency activities. In addition to funding the procurement of agricultural commodities,
Title II funds are used to cover ocean freight, inland freight, and internal transport,
storage, and handling costs. Other resources administered under Title II include cash
grants awarded to cooperating sponsors to help pay administrative costs associated with
food programs. 1

USAID’s Office of Food for Peace has primary responsibility for administering the Title II
program. The Office of Food for Peace receives, reviews, and approves proposals from
cooperating sponsors, awards the grants discussed above, and manages funds for non-
commodity program costs, such as ocean freight.

With USAID’s approval, cooperating sponsors may either distribute the commodities
directly to recipients or sell the commodities to generate foreign currency to support local
development programs. The sale of U.S. agricultural commodities by cooperating
sponsors (turning food assistance into program funds) is referred to as monetization.
Title II monetization began in 1986 in response to repeated requests by cooperating
sponsors for additional funding to cover foreign currency costs associated with P.L. 480
food distribution programs. In recognition of these needs, Congress mandated that
USAID permit cooperating sponsors to monetize annually at least 15 percent of the total
value of Title II non-emergency commodities.

The P.L. 480 Title II monetization program in Guatemala is implemented by a consortium
of four cooperating sponsors: Save the Children, SHARE, Catholic Relief Services
(CRS) and CARE under an umbrella monetization agreement.2 CRS is the leader for the
consortium and receives 1 percent of food sales to cover the consortium’s operating
expenses.
1
    Section 202(e) of P.L. 480 authorizes the Office of Food for Peace to authorize additional
    funding to the cooperating sponsors to establish new programs under Title II or to support
    specific administrative costs for carrying out programs in foreign countries if the cooperating
    sponsors’ Title II funding falls short. Because of the limited availability of 202(e) funds, the
    Office of Food for Peace restricts their use.
2
    When two or more cooperating sponsors collaborate to monetize their donated commodities
    jointly, they are carrying out an umbrella monetization.


                                                                                                  3
Each year, the cooperating sponsors prepare an analysis (called a Bellmon Analysis) for
the P.L. 480 program to address the potential disincentive effects of U.S. food aid on
agricultural production and marketing in recipient countries. The analysis focuses on 1)
whether adequate storage facilities will be available in the recipient country at the time of
the arrival of the commodity to prevent spoilage or waste of the commodity; and 2)
whether the distribution of the commodity in the recipient country will result in a
substantial disincentive to or interference with domestic production or marketing in that
country.

Prior to fiscal year 2003, yellow corn and soy bean meal were monetized; since then
only crude degummed soy oil has been monetized in Guatemala. Below is a table that
describes the volume of monetized commodities from fiscal years 2002 through 2006:

Table 1: Volume and Sales Value of Monetized Commodities from FY 2002
through FY 2006

      Volume (in Metric Tons) and Sales Value of Title II Commodities Monetized
                 FY 2002 FY 2003     FY 2004    FY 2005   FY 2006    MT Total   Total Value
 Soy Bean Meal     17,570        -          -         -          -    17,570        $3,953,250
 Yellow Corn       25,640        -          -         -          -    25,640        $2,692,200
 Soy Oil                -    7,550      7,220    15,080      9,310    39,160      $27,875,780

This audit focused on monetization activities from fiscal years 2005 and 2006.

AUDIT OBJECTIVE
As part of a worldwide audit directed by the OIG’s Performance Audits Division, the
Regional Inspector General/San Salvador audited USAID/Guatemala’s P.L. 480 non-
emergency monetization activities to answer the following question:
  •     Are USAID/Guatemala’s P.L. 480 monetization activities achieving selected
        planned outputs?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                             4
AUDIT FINDINGS
Are USAID/Guatemala’s P.L. 480                          monetization         activities
achieving selected planned outputs?

We were not able to answer this audit objective because in Guatemala no development
programs were funded by commodity sales and hence no outputs were defined for
USAID/Guatemala’s monetization activities. Instead, monetization proceeds were used
to defray expenses associated with distributing food assistance under the P.L. 480 Food
Security Program and therefore contributed indirectly to achieving the outputs that were
defined for the Food Security Program. The proceeds were primarily used to support
administrative expenses such as internal transportation, handling, labor, storage, and
warehousing associated directly with the distribution of commodities. The proceeds
were also used to provide materials for agricultural and infrastructure projects.

The uses of monetization proceeds are verified through annual audits of the cooperating
sponsors. In addition, during our audit, we scanned selected expenses incurred during
fiscal years 2005 and 2006 for unusual activity and nothing came to our attention that
would make us believe that the proceeds were not used as intended.

Although we could not answer the audit objective, we found several opportunities to
improve program operations.

Reliance on One Commodity
Increases Program Risks
 Summary: The cooperating sponsors implementing the P.L. 480 program in
 Guatemala depend on monetization proceeds to financially support the administration
 of their food distribution program. Since fiscal year 2003, the P.L. 480 program has
 monetized only one commodity—crude degummed soy oil. Because of the risks
 associated with relying on a single commodity, and because the Guatemalan market
 for crude degummed soy oil is limited, both the 2005 Bellmon Analysis and a recent
 program evaluation in 2006 recommended that the program move to a market basket
 approach that monetizes more than one commodity. The program has explored
 monetizing other commodities, but finding other commodities that would meet all the
 necessary requirements under P.L. 480 has proven difficult. Reliance on one
 commodity entails a great deal of risk to the program because, if the commodity were
 to become unavailable or if the demand for it were to diminish, the program would
 suffer major consequences that would make it difficult or impossible to carry out
 developmental programs.

The cooperating sponsors implementing the P.L. 480 program in Guatemala depend on
monetization proceeds to financially support the administration of their food distribution
program. Since fiscal year 2003, the P.L. 480 program has monetized only one
commodity—crude degummed soy oil. Crude degummed soy oil is primarily used for
the production of refined oil, lard, and margarine for human consumption. The 2005
Bellmon Analysis cited several reasons why soy oil is a suitable commodity for
monetization in Guatemala: demand for soy oil is expected to rise, importing soy oil
does not create any disincentives for local production since soy oil is not produced in


                                                                                        5
Guatemala, and it has a relatively high per unit value.

However, depending on only one commodity entails a great deal of risk and, because
the size of the Guatemalan market for soy oil is limited, both the independent
consultants who conducted the 2005 Bellmon Analysis and the recent program
evaluation in 2006 recommended that the program move to a market basket approach
that monetizes more than one commodity. This move would also have the effect of
reducing the risk inherent in selling only one product to one customer.

The program has explored the possibility of monetizing other commodities, but it has
been difficult to find other commodities that have high demand, do not produce potential
disincentives to local production, have relatively high value, and are produced for human
consumption. Prior to fiscal year 2003, yellow corn and soy bean meal were monetized
under the program, but these were used for animal feed and the Office of Food for
Peace subsequently mandated that the commodities used under the monetization
program had to be for human consumption. (The consortium argued, unsuccessfully,
that although yellow corn and soybean meal were used to feed chickens, chickens and
chicken eggs are vital sources of protein for Guatemalans.)

Relying on only one commodity places the program at greater risk because any
disruption in the supply or demand of soy oil could drastically reduce the amount of local
currency available to the program. The cooperating sponsors and the Mission have also
expressed concern that monetization of soy oil alone will not satisfy the future local
currency requirements of the P.L. 480 program in Guatemala. For example, on March
14, 2005 and January 24, 2006, CRS headquarters and the Mission Director,
respectively, sent memos to the Office of Food for Peace requesting to resume
monetization of soy bean meal and yellow corn along with soy oil to avoid shortfalls and
other problems with the program.

There are several options for moving toward a market basket approach:

•   The consortium should consider selling additional commodities. In the new multi-
    year assistance program proposal, which is the five-year plan for P.L 480 activities
    covering fiscal years 2007 through 2011, the consortium plans to add wheat to the
    monetization program. However, according to the 2005 Bellmon Analysis, in the
    past, monetizing wheat has been problematic and adding it as a commodity will be a
    considerable challenge. The challenges will be (1) to sell wheat that may not be of
    the same quality available from other suppliers in the country and (2) the buyers may
    not be able to arrange for letters of credit as required by USAID.

•   Another possibility is to work with a major grain trader to monetize commodities, as
    recommended in the 2005 Bellmon Analysis. The advantage of this arrangement
    would be that the transaction between the trader and the buyer would have all the
    appearances of a regular commercial transaction, avoiding negative perceptions
    associated with donated food commodities.

•   Another possibility is third country monetization (i.e., selling commodities in another
    country to fund developmental programs in Guatemala). Selling to a larger market
    would likely make it feasible to monetize additional commodities besides soy oil.

All three of these possibilities are options that should be explored by the Mission and the



                                                                                         6
consortium to mitigate the program risk of relying on only one commodity.

      Recommendation No. 1: We recommend that USAID/Guatemala seek approval
      from the Office of Food for Peace to move to a market basket approach by (a)
      selling additional commodities, (b) working with a major grain trader, and/or (c)
      selling to third countries.

Evaluation of Management Comments – In response to our draft report,
USAID/Guatemala stated that the only feasible way to move towards a market basket
approach is by selling additional commodities. Therefore, in the fiscal year 2007 Annual
Estimate of Requirements, the monetization program will add wheat as a commodity for
the monetization program.

Based on the information provided by USAID/Guatemala, we consider that a
management decision has been reached for Recommendation No. 1. Determination of
final action for this recommendation will be made by the Audit Performance and
Compliance Division (M/CFO/APC).

The Monetization Program Should Move
to an Open and Competitive Sales Approach

    Summary: The 1998 Monetization Field Manual encourages open and competitive
    sales as opposed to non-competitive sales. However, the program has used a non-
    competitive sales approach, relying on only one large buyer, since fiscal year 2003.
    Other buyers were excluded from the program because of the requirement to arrange
    for a letter of credit and because they were only able to buy small quantities of oil.
    Relying on one buyer puts the consortium at a disadvantage in obtaining the highest
    price and also places the consortium at a higher risk of not being able to implement
    program activities if the buyer loses interest.

According to the Monetization Field Manual of 1998, “Where appropriate, USAID must
support open and competitive sales as opposed to non-competitive sales.” Competitive
sales (auctions and tender) are preferred over negotiated sales because they offer a
degree of transparency and potentially maximize sales proceeds. Specifically, the
guidance states that open and competitive sales have several advantages over
negotiated sales and administered prices:

•     Auction/tender sales eliminate the inherent difficulties in determining a “market price”
      for monetized food aid.

•     Auction/tender sales offer a degree of transparency that, except in the case of
      extremely immature markets, can facilitate access to food supplies by small-scale
      buyers.

•     Auction/tender sales offer opportunities for realizing higher sales prices, thereby
      generating greater amounts of foreign currency proceeds for cooperating sponsor
      activities.

However, the program uses negotiated sales with only one buyer, who has been the
sole buyer since fiscal year 2003. According to Catholic Relief Services, the leader of
the consortium, there are three other potential buyers of soy oil in Guatemala. However,


                                                                                            7
the consortium has only been able to sell the oil to one large buyer because the other
potential buyers are relatively small and cannot provide letters of credit to satisfy the
payment requirements imposed by USAID.

Relying on only one buyer is potentially detrimental to the program. If for any reason the
buyer becomes uninterested or the relationship between the consortium and the buyer
falters, the program will suffer. In addition, relying on one buyer limits the consortium’s
bargaining power. As described in the next section, the consortium has paid more than
$250,000 in losses that were contractually the responsibility of the buyer; for fear that the
buyer might withdraw from doing future business with consortium. The buyer knows that
the consortium is eager to sell the commodities and therefore is able to arrange very
attractive terms.

Relying on one buyer puts the consortium at a disadvantage in obtaining the most value
for its commodities and also places the consortium at a higher risk of not being able to
finance P.L. 480 program activities if the buyer chooses not to do business with the
consortium.

   Recommendation No. 2: We recommend that USAID/Guatemala seek approval
   from the Office of Food For Peace to move its monetization program to an open
   and competitive approach by relaxing the financial payment requirements so that
   other buyers can enter the market, replacing the existing commodity, adding
   other commodities or taking other measures to move in that direction.

Evaluation of Management Comments – In response to our draft report,
USAID/Guatemala stated that the demand-market situation in Guatemala does not allow
for the program to benefit from changes in payment requirements or moving from a
negotiated sales process to one of competitive sales. The mission stated that although it
would be ideal for a greater demand-driven market for the monetization commodities,
the present country conditions have not reached the desired competitive levels to benefit
from the open market sales. The mission also stated that the consortium has made
significant efforts to find qualified buyers for the commodities but has not had any
success. They stated that there are four potential buyers of crude degummed soy oil in
the country. Of these four, only two were determined capable of effectively handling the
receipt, storage and distribution of oil shipments, but only one showed interest in the
program. Regarding wheat, the market is currently controlled by the millers association
where only one buyer exists.

We considered the mission’s view points on why the market conditions in Guatemala do
not allow for competitive sales; however, we believe that moving towards a competitive
sales approach will only benefit the program in the future. The intention behind the
recommendation was to push the program towards an open and competitive approach,
whether this means relaxing financial payment requirements so that other buyers can
enter the market, replacing the existing commodity, adding other commodities or taking
other measures to move in that direction. If relaxing payment requirements is not
feasible, then the mission should look to other possibilities to move towards the
competitive approach. Accordingly, we have slightly revised the recommendation to
better state our intentions. Furthermore, although the mission stated in its response to
the draft report that significant efforts were made to find qualified buyers for oil, we would
like to see more evidence of the actions taken before agreeing to a management
decision on this recommendation.



                                                                                            8
The Program Incurred Losses That
Were the Responsibility of the Buyer
    Summary: The contract with the buyer stipulates that an independent surveyor will
    establish the quantity of oil delivered based on a survey conducted on board the ship
    when it arrives in Guatemala. The contract further stipulates that title transfers to the
    buyer when the oil is offloaded from the ship. However, the consortium has not
    enforced the contract and has assumed responsibility for losses of approximately
    $250,000 that occurred after surveys were conducted and after the oil was offloaded.
    These losses were the buyer’s responsibility. The consortium will need to enforce the
    contract with the buyer to prevent the program from incurring more losses in the
    future. Furthermore, the consortium will need to make a claim against the buyer to
    recover the losses incurred by the program or will be liable to USAID for those losses
    if a claim is not pursued.

According to the sales contract between the buyer and the consortium,

          CRS’s responsibility3 for the commodity ends at the time of discharge in
          Port Santo Tomas de Castilla, when the commodity passes beyond the
          vessel’s permanent hose, which is the point of delivery to the buyer and
          where the responsibility of the latter begins, regardless of whether the
          buyer and his/her representative is present or not to receive the
          commodity.

Furthermore, the contract states that the buyer and the consortium will accept as
definitive the tonnage discharged from the vessel according to the survey report
performed at the point of delivery and issued by the hired independent surveyor.
According to the contract, this survey report will be used as the basis on which final
payment will be made.

However, since the beginning of the relationship between the buyer and the consortium,
which began in fiscal year 2003 with the first oil sale, the consortium has accepted
responsibility for the oil until the oil reached the buyer’s permanent storage tanks
through approximately two to three miles of pipe extending from the point of delivery at
Port Santo Tomas de Castilla to the buyer’s storage tanks.




3
     This responsibility is on behalf of the consortium made up of SHARE, CARE, Save the
     Children, and CRS.


                                                                                            9
 Photo taken by buyer on August 18, 2006 of oil     Photo taken by buyer on August 18, 2006 of
 pipes extending from the port of delivery to the   storage tanks at the buyer’s storage facilities.
 buyer’s storage tanks. These pipes extend
 approximately two to three miles and the oil
 takes approximately 24 hours to transfer.

When the oil is received at the port of delivery, an independent surveyor measures the
quantity of the shipment. However, according to Catholic Relief Services, the buyer is
not willing to accept that measurement as final because the measurements are
sometimes inaccurate due to ship movements caused by waves at dockside. The buyer
has requested that final measurements be made when the oil reaches his storage tanks,
and the consortium has not enforced the contract terms for fear of losing the buyer’s
business. As a result, the consortium incurred substantial losses from fiscal years 2003
through 2005. The table below describes the losses:

Table 2: Losses Incurred from FY 2003 through FY 2005

    Year         Losses Incurred
    2003                  $78,502
    2004                  $52,797
    2005                $121,290
    Total               $252,589

These losses were incurred because of problems with the pipes that transferred the oil
from the vessel to the buyer’s permanent tank, and, possibly, theft of the oil during
transfer. The consortium took actions to control the losses such as repairing the pipes
and even adding their own staff to monitor the transfer process, but the losses continued
until the end of fiscal year 2005. In fiscal year 2006, after the buyer replaced some of
his staff, the losses ended.

The losses incurred by the program were the responsibility of the buyer according to the
contract. According to Regulation 11 of the Title 22 Foreign Relations, section 211.9, “if
a cooperating sponsor acquires any right against a person or governmental or
nongovernmental organization based on an event for which the person or organization is


                                                                                                  10
responsible that resulted in the damage, loss or misuse of any commodity, monetized
proceeds or program income, the cooperating sponsor shall file a claim against the liable
party or parties for the value of the commodities, monetized proceeds, or program
income lost, damaged, or misused and shall make every reasonable effort to collect the
claim.” Furthermore, Regulation 11 states that, “cooperating sponsors who fail to file or
pursue such claims shall be liable to USAID for the value of the commodities or
monetized proceeds or program income lost, damaged, or misused.” Therefore,
because the cooperating sponsors did not make such claims against the buyer for the
losses incurred, USAID should ensure that the cooperating sponsors reimburse the
program for the losses that were the responsibility of the buyer.

   Recommendation No. 3: We recommend that USAID/Guatemala and the
   cooperating sponsors enforce the contract which stipulates that the buyer
   accepts the survey report issued and transfer of title to the oil at the point of
   delivery, or change the contract so that title passes at some other point.

   Recommendation No. 4:         We recommend that USAID/Guatemala obtain
   evidence that the cooperating sponsors have reimbursed the program for
   $252,589 in losses that were the responsibility of the buyer.

Evaluation of Management Comments – In response to our draft report,
USAID/Guatemala stated that the consortium has strengthened its procedures which
included additional physical and program monitoring enhancements for the
measurement and transfer of the oil. Some of these procedures included gaining
complete access to the buyer’s storage tanks upon arrival at port and transfer to the
containers, using the independent surveyor’s measurements, and timely identification of
responsible party for any future losses. With these procedures in place, the mission
does not see a need or benefit in modifying the terms and conditions of its present
contract.

We disagree with the mission’s response. The contract states that ownership of the oil
transfers to the buyer when the oil passes beyond the vessel’s permanent hose. Even
though the consortium has implemented additional control procedures to prevent future
losses, this is not the responsibility of the consortium. In fact, the consortium should not
spend additional money to implement these procedures. The consortium should either
enforce the contract terms which stipulates that the buyer accepts the transfer of title the
oil at the point of delivery, or change the contract so that title passes at some other point.
A management decision will be made for recommendation No. 3 when the mission
develops a firm plan of action to enforce the contract with the buyer or to change the
contract accordingly.

In addition, based on additional information (Section 211.9 of Regulation 11) that came
to our attention after we issued our draft report, we have revised the audit finding and
added a recommendation that the cooperating sponsors reimburse the program for
losses that were the responsibility of the buyer.           A management decision for
Recommendation No. 4 can be recorded when we have agreed with USAID/Guatemala
on a firm plan of action, with target dates, for implementing the recommendation.




                                                                                           11
Losses Were Not Claimed
from the Shipping Company
In 2005, the buyer was supposed to receive a shipment of oil by January 15, but did not
until January 23, eight days late. Due to the delay, the buyer had to buy a small amount
of oil from other sources at premium prices to meet his business needs. The consortium
paid the buyer $40,680 in damages caused by the late delivery of the oil, but then failed
to claim this amount from the shipping company. According to CRS, although the
shipper was responsible for this delay, the consortium did not make a claim against the
shipper because it did not occur to them to do so. As a result, the P.L. 480 program lost
$40,680 that could have been used to fund program expenses. Based on management
comments received from USAID/Guatemala, we are making the following
recommendation:

   Recommendation No. 5: We recommend that USAID/Guatemala, ensure that
   the cooperating sponsors assert “Force Majuere” as a defense to the claim from
   the buyer, recover $40,680 from the buyer, and return the amounts recovered to
   the program.

Evaluation of Management Comments – In response to our draft report,
USAID/Guatemala stated that no legal recourse was available to the consortium to
recover this amount since the owners of the ship declared “Force Majeure” (a French
term that means "greater force” and is a common clause in contracts which essentially
frees one or both parties from liability or obligation when an extraordinary event or
circumstance beyond the control of the parties that prevents one or both parties from
fulfilling their obligations under the contract) when the Coast Guard sent a letter to the
owners of the ship indicating that the barge was not capable of carrying the oil. The
charter was cancelled and a new one was issued at a later date resulting in the delay of
the shipment.

In our opinion, when the ship owners declared “Force Majuere” as a defense to claims
from the consortium, the consortium should have done the same and asserted “Force
Majuere” as a defense to the claims from the buyer. Accordingly, we have revised
Recommendation No. 5. A management decision for Recommendation No. 5 can be
recorded when we have agreed with USAID/Guatemala on a firm plan of action, with
target dates, for implementing the recommendation.

The Consortium May Negotiate to Retain
Taxes as Host Country Contributions
According to 22 Code of Federal Regulations Part 211 and the Monetization Manual of
1998, cooperating sponsors are encouraged to negotiate with the host country to
establish an agreement whereby taxes are charged, as in a commercial transaction, but
the cooperating sponsors are allowed to retain the taxes as a host country contribution
to the program. However, the cooperating sponsors have not negotiated with the
Government of Guatemala to allow for the retention of taxes (currently paid by the buyer)
as a host country contribution to the program. The cooperating sponsors have not done
this because they were not aware of the possibility of negotiating such an agreement. If
the cooperating sponsors negotiate such an agreement, this could result in millions of
dollars of additional funding for the program. Below is a table summarizing the


                                                                                       12
estimated taxes paid from FY 2002 through 2006:

Table 3: Estimated Taxes Paid from FY 2002 through FY 2006

    Year       Sales Value        Taxes
 FY 2002        $6,645,450          $797,454
 FY 2003        $3,705,110          $444,613
 FY 2004        $4,852,690          $582,322
 FY 2005        $8,063,020          $967,562
 FY 2006        $4,609,510          $553,141
 Totals        $27,875,780        $3,345,092

   Recommendation No. 6: We recommend that USAID/Guatemala work with the
   cooperating sponsors to negotiate with the Government of Guatemala to permit
   the cooperating sponsors to retain the taxes paid by the buyer as host country
   contributions to the program or negotiate further increases in the Government of
   Guatemala cash contributions in future monetization agreements.

Evaluation of Management Comments – In response to our draft report,
USAID/Guatemala stated that previous informal discussions with the Government of
Guatemala (GOG) indicated that renegotiating for additional contributions would put the
consortium at risk with the amount of contributions already agreed to. Therefore, the
Mission does not feel the need to negotiate these contributions with the GOG. However,
the Mission stated that they are committed to continue using their best efforts to
negotiate further increases in cash contributions from the GOG in future monetization
agreements.

We have carefully considered the Mission’s comments, but we still believe that it would
be worthwhile for the mission to negotiate additional cash contributions for the program.
We have revised the recommendation to include negotiating cash contributions in future
monetization agreements. A management decision for Recommendation No. 6 can be
recorded when we have agreed with USAID/Guatemala on a firm plan of action, with
target dates, for implementing the recommendation.




                                                                                      13
                                                                             APPENDIX I


SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/San Salvador conducted this audit in accordance with
generally accepted government auditing standards. This audit is part of a worldwide
audit of P.L. 480 non-emergency monetization activities. The audit was designed to
determine if USAID/Guatemala’s P.L. 480 non-emergency monetization activities
achieved selected planned outputs for development programs funded by commodity
sales.

In planning and performing the audit, we reviewed and assessed the effectiveness of
USAID/Guatemala’s management controls related to monetization activities. The
management controls assessed included the Mission’s 2006 operational plan,
development activity proposals, annual results reports from cooperating sponsors, and
annual reports on commodity requirements from the cooperating sponsors. We also
reviewed the Mission’s management assessment report and the Mission’s internal
control self assessment pursuant to the Federal Manager’s Financial Integrity Act for
fiscal year 2005 to determine whether the Mission had taken corrective actions for
identified weaknesses.

During the audit, we interviewed USAID/Guatemala officials, cooperating sponsor
officials, the buyer of the monetized commodity, and the regional food security advisor.
Of the four cooperating sponsors for the monetization program, we visited the office of
one cooperating sponsor, Catholic Relief Services, which was the leader of the
cooperating sponsors’ consortium. We also visited the buyer’s office in Guatemala.

The five-year program, which began in fiscal year 2002, is expected to end in fiscal year
2006. Our audit focused on activities that took place during fiscal years 2005 through
2006 (as of the first day of fieldwork – August 8, 2006). During that time, 24,390 metric
tons of crude degummed soy oil was monetized with proceeds of $12,672,530.
Monetization proceeds of approximately $893,000 were used to purchase materials and
supplies for agricultural and infrastructure development projects in fiscal year 2005.

The audit fieldwork was performed in Guatemala from August 8, 2006 through August
23, 2006.

Methodology
We were not able to answer the audit objective because in Guatemala no development
programs were funded by commodity sales and hence no outputs were defined for
USAID/Guatemala’s monetization activities. Instead, monetization proceeds were used
to defray expenses associated with distributing food assistance under the P.L. 480 food
program and contributed indirectly to achieving the outputs that were defined for the food
program.

We conducted interviews with USAID/Guatemala officials, the buyer, and cooperating



                                                                                       14
sponsor representatives from Catholic Relief Services, Save the Children, SHARE, and
CARE to determine the roles and responsibilities for managing various aspects of the
monetization process in Guatemala. We also reviewed the relevant U.S. laws governing
the P.L. 480 Title II Program including 22 Code of Federal Regulations Part 211 as well
as applicable USAID policies and procedures such as the Monetization Field Manual
from 1998. Additionally, we reviewed USAID/Guatemala and cooperating sponsors’
documentation such as the development activity program documents, cooperating
sponsors’ annual estimated requirements, cooperating sponsors’ annual results report,
the 2005 Bellmon Analysis for Guatemala, the contract agreements with the buyer, and
host country agreement with the Government of Guatemala, and the 2006 program
evaluation report.




                                                                                    15
                                                                       APPENDIX II


MANAGEMENT COMMENTS
Date:        October 27, 2006

To:          Tim Cox
             RIG/A/San Salvador

From:        Wayne Nilsestuen,
             USAID/Guatemala Director

Subject:     Mission response to Draft Audit Report on USAID/Guatemala
             Management of P.L.480 Title II Non-Emergency Monetization Program.

I. Background

Subject draft audit report dated September 19, 2006 includes five recommendations
for action by the Mission.

This memorandum addresses the Mission’s position on each of the draft audit
recommendations and requests closure of recommendations 1, 2, 3, and 5 upon
issuance of the final report. Based on the comments and evidence provided in this
memorandum, we also request RIG consideration of excluding finding and
recommendation No. 4 in its final audit report.

II. Listing of draft audit recommendations and USAID/Guatemala request
     for closure/exclusion upon issuance of final audit report

A. Recommendation No. 1: We recommend that USAID/Guatemala seek approval
from the Office of Food for Peace to move to a market basket approach by (a) selling
additional commodities, (b) working with major grain trader, and/or (c) selling to
third countries.

Discussion/Conclusions: Working closely with our Office of Food for Peace in
Washington and the Consortium in Guatemala, we have concluded that the one and
only economically feasible alternative for moving our PL-480 Title II Monetization
Program towards a market basket approach is by selling additional commodities.
Based on this and as reflected in Attachment I of this memorandum, the Title II
implementers’ Annual Estimate of Requirements (AER) for FY-07 now include both
CDSO and wheat for the program. According to market size and Cooperating
Sponsor (CS) funding needs, 75% of proceeds will be generated from the
monetization of CDSO and the remaining 25% will come from wheat.

Option “b” which suggests working with major grain traders was discussed and
determined not feasible due to the increased costs (fees for sale) it would cause to
the program.

Option “c”, which suggests selling to third countries, has also been assessed by the
consortium and considered not viable on economic grounds because of the
complexities in establishing it for a relatively small program with only two
commodities and the extensive time and effort necessary for coordinating, managing


                                                                                 16
and monitoring its implementation.

B. Recommendation No. 2: We recommend that USAID/Guatemala seek approval
from the Office of Food for Peace to move its monetization program to an open and
competitive approach by relaxing the financial payment requirements imposed on
buyers and holding auctions or tender sales.

Discussion/Conclusions: Food for Peace, the Mission and the Consortium have
discussed, with no real positive results, the possibility and benefits of relaxing the
financial payment requirements imposed on buyers and of holding auctions or tender
sales under present Guatemala market conditions. As explained below, present
demand-market situation in Guatemala does not allow for the program to benefit
from changes in payment terms or moving from a negotiated sales process to one of
competitive sales. Although we would wish for a greater demand-driven market for
our Title II commodities, present country conditions have not reached the desired
competitive levels to benefit from open market sales.

The Consortium has made significant efforts to find qualified buyers for the two
commodities (CDSO and wheat) under our PL-480 Title II Monetization program in
Guatemala with the following results.

1. Crude Degummed Soybean Oil (CDSO)

The consortiums assessment of the CDSO demand-market in Guatemala concluded
that:

a. Only four potential buyers exist within the country;
b. Of the four potential buyers, only two were determined capable of effectively
   handling the receipt, storage and distribution of oil shipments, and that of these
   two potential buyers, only one showed interest in the program.
c. The remaining two buyers were declared by the consortium as too small to
   handle a 2000 metric ton shipment of oil (minimum amount allowed by
   Washington for shipment under a Title II monetization program) or were
   determined of high risk for participation in the program.
d. Based on “a” through “c” results, the consortium did the only possible thing,
   negotiate the best price and conditions with the sole remaining potential buyer of
   CDSO in country.

2. Wheat

The wheat market in Guatemala is currently controlled by the Guatemalan Millers
Association where all large, medium and small millers are integrated as one unit.
Therefore, only one buyer exists and there is no competition. This Association
requires that we monetize through them in order to reach small mills that otherwise
would have no access to the PL-480 Title II wheat.

Considering the results of our consultations with the Office of Food for Peace in
Washington and of their agreement to the above conclusions, we request
Recommendations No. 1 and No. 2 be closed upon issuance of the final report.

C. Recommendation No. 3: We recommend that USAID/Guatemala ensure that
cooperating sponsors enforce the contract which stipulates that the buyer accepts
the survey report issued and transfer of title to the oil at the point of delivery, or
change the contract accordingly.


                                                                                   17
Discussion/Conclusion: In order to further improve the accuracy of the final
surveyors report and avoid possible future discrepancies/disagreements between the
consortium and the buyers’ measurements of CDSO - upon arrival at port and
transfer to the containers, the buyer gave the consortium complete access to his
storage tanks which were re-calibrated by an independent surveyor contracted by
the Consortium. In addition, the Consortium has strengthened its procedures for
ensuring the accuracy of all measurements (product shipped-based on shipping
documents; and product received at port and transferred to buyer’s containers based
on independent surveyor’s measurements along ship side and at storage tanks) and
for timely identification of the party (shipper or buyer) responsible for any possible
future losses of PL-480 Title II products. Since we feel that with these additional
physical and program management/monitoring enhancement the Consortium will be
able to maintain its fiscal year 2006 “cero losses” rating, we see no need or benefit
in the Consortium modifying the terms and conditions of its present contracts.

Based on the above program oversight and operations improvements, the results of
such enhancements in fiscal year 2006 and projected into the future, and of the
Consortiums clear understanding of its responsibility to enforce present contract
terms and conditions we request Recommendation No. 3 be closed upon issuance of
the final audit report.

D. Recommendation No. 4:            We recommend that USAID/Guatemala, in
coordination with the cooperating sponsors, work towards recovering $40,680 from
the shipping company and returning the amounts recovered to the program.

Discussion/Conclusion: As reflected in Attachment II to this Memorandum and in
the following list of events, the “voyage – Sea Crest” triggering the condition leading
to the draft audit report finding was declared “Force Majeure” by “Owners”.
Therefore no legal recourse is available to implement Recommendation No. 4. by the
Consortium or USAID/Guatemala to recover the $40,680 mentioned in the report.

List of events leading to the audit report finding and recommendation follow:

1. The CDSO Barge “Sea Crest” was designed and built to carry caustic soda.
However, new owners received permission in July 2004 from the US Coast Guard to
carry vegetable oil. Since this approval, the Sea Crest has carried two cargoes of
Vegoil.

2. The barge was fixed on November 2004 to lift a cargo of VegOil. After fixing the
cargo, the barge underwent its annual Coast Guard Inspection (COI) and the coast
Guard issued a new COI without VegOil listed as an acceptable cargo.

3. The Coast Guard sent a letter to owners indicating that the barge was not capable
of carrying Vegoil. The charter was cancelled and a new freight re-tender issued.

4. The owners of the Sea Crest underwent discussions with the Coast Guard and
their naval architect to find a solution. However, the Coast Guard did not yield on
their position and as a consequence, the owners declared Force Majeure for the Sea
Crest voyage. A claim can not be processed once Force Majeure is declared.
Therefore, CRS as the lead agency of the consortium has no legal recourse to pursue
the recovery of the $40,680.

Based on the above occurrences and “Force Majeure” declaration, we request RIG/SS


                                                                                    18
consideration of deleting finding and recommendation No. 4 from the final audit
report.

E. Recommendation No. 5: We recommend that USAID/Guatemala work with the
Cooperating Sponsors to negotiate with the Government of Guatemala to permit the
cooperating sponsors to retain the taxes paid by the buyer as host country
contributions to the program.

Discussion/Conclusion: USAID/Guatemala and Cooperating Sponsor members of
the Consortium, feel that they have been extremely successful in their difficult
negotiations for acceptable counterpart contributions from the Government of
Guatemala (GOG) in support of the program. Currently the GOG has agreed to
contribute US$4,605,262 on an annual basis to our PL-480 Title II monetization
activities. Said amount is far beyond the amount that could be recovered from the
value added tax (VAT) amount levied on Title II commodity sales. Although, we (the
Mission and the Consortium) find value in the auditors suggestion of negotiating
further increases to the GOG’s agreed upon counterpart contributions. However, our
previous informal discussions with the GOG indicate that reopening negotiation NOW
for an additional contribution equal to the amount of VAT collections (VAT is equal to
12% of sales) could not only be extremely complex, but also put at risk present
agreed upon cash contribution levels of over 80% of yearly program sales. Based on
the expressed concerns and of our commitment to continue using our best efforts to
negotiate further increases in GOG cash contributions in future monetization
agreements we request this recommendation also be closed upon issuance of the
final audit report.

III. Summary of requested actions

Based on the above, USAID/Guatemala requests RIG/SS agreement to close draft
audit recommendation numbers 1, 2, 3, and 5 and exclusion of draft audit finding
and recommendation No. 4 upon issuance of the final audit report.

We would also like to take this opportunity to thank RIG/SS auditors for their
professionalism in the performance of subject audit.

Early concurrence with the Mission’s requested actions is appreciated.




                                                                                   19
U.S. Agency for International Development
        Office of Inspector General
        1300 Pennsylvania Ave, NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
